APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
[Filed October 17, 2019]
————
No. 18-3201
(D.C. No. 6:15-CV-01230-JWB) (D. Kan.)
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
$144,780.00 IN UNITED STATES CURRENCY,
more or less,
Defendant.
NATHAN L. DUCKWORTH,
Claimant-Appellant.
————
ORDER AND JUDGMENT*
Before TYMKOVICH, Chief Judge, BALDOCK and
HOLMES, Circuit Judges.
This is a civil forfeiture case brought under the
Controlled Substances Act, 21 U.S.C. § 881(a)(6),
seeking forfeiture of $144,780 in United States currency. After a bench trial, the district court concluded
*

This order and judgment is not binding precedent, except
under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

2a
the Government established by a preponderance of the
evidence that Claimant–Appellant Nathan Duckworth
intended to exchange the $144,780 seized from him
during a traffic stop for controlled substances. Accordingly, the district court entered a judgment forfeiting
the currency to the United States. Claimant appeals.
Exercising jurisdiction under 28 U.S.C. § 1291, we
affirm.
I.
On May 12, 2015, Trooper James McCord of the
Kansas Highway Patrol stopped a rented 2015 Chevrolet
Tahoe traveling westbound on Interstate 70 in Ellis
County, Kansas, after he observed the vehicle exceeding the speed limit. Claimant was driving the vehicle,
and his companion, Walter Weathers, Jr., was in the
front passenger seat. When Trooper McCord approached
the Tahoe, he smelled the odor of burnt marijuana
emanating from the vehicle. Trooper McCord asked
Claimant and Weathers about their travel plans, and
Claimant responded they were traveling to Denver for
a week-long family vacation. Trooper McCord found
this suspicious because the rental agreement indicated
the Tahoe was due back in Kansas City at noon that
same day and because there was no luggage in the
vehicle—only two shirts and a pair of pants were
hanging in the backseat. Both Claimant and Weathers
denied smoking marijuana in the Tahoe, and they
told Trooper McCord there were not any drugs in the
vehicle.
Based on the smell of marijuana, Trooper McCord
searched the Tahoe. The search revealed a backpack
between the driver and passenger seat containing
$144,780 rubber-banded together in two clear, vacuumsealed plastic bags. When Trooper McCord asked
Claimant why he was carrying such a large sum of

3a
currency, Claimant said it was none of his business.
During the search, Trooper McCord also found marijuana
“gleanings”—small particles of marijuana—and tobacco
gleanings in the Tahoe. The marijuana gleanings were
photographed but never collected or tested. Trooper
McCord did not find any burnt marijuana, cigars, rolling papers, or other drug paraphernalia in the Tahoe.
A criminal background check revealed Claimant had
two prior arrests for drug trafficking. Trooper McCord
then moved the Tahoe to Kansas Patrol Troop D
Headquarters. While at Troop D Headquarters, Kansas
Highway Patrol Trooper William Gray conducted a
canine sniff of the currency. Jaxx, a certified patrol
dog, alerted to the presence of a narcotic odor on the
currency.
The Government filed a complaint asserting the
$144,780 seized from Claimant was subject to forfeiture under 21 U.S.C. § 881(a)(6) because the currency
was intended to be furnished in exchange for controlled substances or was proceeds of an illegal drug
transaction. Claimant filed a notice of claim and an
answer to the complaint in which he asserted ownership
of the currency, alleging the currency was legitimately
derived and not connected to illegal drug activity.
Claimant also moved to suppress the currency and
other evidence discovered during the traffic stop, arguing the search violated the Fourth Amendment.
Following a suppression hearing, the district court
concluded Trooper McCord lawfully stopped Claimant’s
vehicle and probable cause existed to search the
vehicle based on Trooper McCord’s credible testimony
that he smelled marijuana. Accordingly, the district
court denied Claimant’s motion to suppress.
At the bench trial, the Government introduced the
testimony of Trooper Ryan Wolting of the Kansas

4a
Highway Patrol over Claimant’s objection. Trooper
Wolting testified that on October 12, 2014, Claimant
was a passenger in a rental vehicle heading eastbound
on 1-70 in Ellsworth County, Kansas. Claimant and
his wife, who was driving the vehicle, told Trooper
Wolting they were unemployed and traveling back to
Kansas City from Hays, Kansas, where they spent
a one-night get away from home. Trooper Wolting
searched the vehicle and discovered “approximately
nine pounds of vacuum-sealed marijuana in one-pound
individual packages, a loaded pistol in the center console, and approximately $5,320 in [Claimant’s] pants
pocket[,]” all of which Claimant claimed as his property. In the instant proceeding, Claimant admitted the
2014 stop occurred, but he denied ownership of the
marijuana and testified he was neither charged nor
convicted of marijuana possession or illegal possession
of a firearm.
Claimant objected to Trooper Wolting’s testimony on
relevance grounds. While the district court allowed
Trooper Wolting to testify over Claimant’s objection, it
also recognized Federal Rule of Evidence 404(b) places
limitations on prior criminal acts. The court indicated
it would examine the issue further and possibly
disregard the evidence in making its ultimate rulings.
In its order granting forfeiture, the district court
stated it did not consider Trooper Wolting’s testimony
in reaching its decision.
The district court found Claimant’s testimony regarding the purpose of his trip to Denver not credible.
Claimant testified he was traveling to Denver to
drop off $144,780 with Ruben Romero, a social media
acquaintance he had never met in person, as an
investment in a twelve-city music tour. Based on the
evidence presented at trial, the district court found the

5a
“tour idea was little more than a concept (or perhaps
more accurately, a pretext), with no artists, venues,
dates, locations (aside from Kansas City) or other
details agreed to between Romero and Claimant.” As
to where the $144,780 came from, Claimant testified
its sources included: (1) income from his event promotion business and (2) a $40,000 loan from Mustafa Ali,
a business associate. While the district court questioned Claimant’s alleged sources of the $144,780 due
to discrepancies in his tax returns, it found his
explanation “at least plausible.”
Ultimately, the district court concluded the Government failed to show by a preponderance of evidence the
$144,780 constituted proceeds traceable to an illegal
drug exchange. The court held, however, Claimant
more likely than not intended to exchange the
currency for controlled substances. Accordingly, the
district court entered a judgment forfeiting the
$144,780 to the United States.
II.
Claimant raises three issues on appeal. First, he
argues the district court erred in denying his motion
to suppress evidence discovered during the traffic
stop resulting in the seizure of the $144,780. Second,
Claimant contends the district court abused its discretion in allowing Trooper Wolting to testify concerning
the 2014 traffic stop. Third, Claimant argues the
Government presented insufficient evidence to
support the district court’s order of forfeiture. We
address each issue in turn.1
1

Claimant also argues the district court erred in denying his
motion for summary judgment and his motion for judgment as a
matter of law. The denial of summary judgment, as is the case
here, ordinarily is not appealable. Castillo v. Day, 790 F.3d 1013,

6a
A.
First, Claimant contends the district court erred in
denying his motion to suppress the $144,780 and other
evidence discovered during the traffic stop. Claimant
does not question the validity of the initial stop
on appeal, so we need not review its legality here.
Nor does Claimant dispute the well-established law
that “the odor of marijuana by itself is sufficient
to establish probable cause.” See United States v.
Johnson, 630 F.3d 970, 974 (10th Cir. 2010). Rather,
he argues the district court erred in relying on evidence
seized during the search—namely, the $144,780—to
support its finding of probable cause.
Before we turn to the merits of Claimant’s argument, we must address the appropriate standard of
review. As Claimant acknowledges, he did not make
this argument before the district court and has thus
forfeited the argument. Accordingly, we review for
plain error. Richison v. Ernest Group, Inc., 634 F.3d
1123, 1128 (10th Cir. 2011). To establish plain error,
Claimant must show “(1) error, (2) that is plain, which
(3) affects substantial rights, and which (4) seriously
affects the fairness, integrity, or public reputation of
judicial proceedings.” Id.
Although this is a civil case, “the government will be
barred from introducing evidence illegally seized in
violation of the [F]ourth [A]mendment to prove a claim
of forfeiture.” United States v. $149,442.43, 965 F.2d
868, 872 (10th Cir. 1992). “In reviewing a district
1017 (10th Cir. 2015). Nonetheless, Claimant’s basis for both
these arguments is that the Government failed to present
sufficient evidence to support forfeiture of the $144,780. As noted
above, whether the Government presented sufficient evidence in
this case is the third and final issue we address.

7a
court’s denial of a motion to suppress, we view the
evidence in the light most favorable to the Government
and accept the district court’s factual findings unless
clearly erroneous.” United States v. Gilmore, 776 F.3d
765, 768 (10th Cir. 2015). “We review de novo the
ultimate determination of the reasonableness of a
search . . . under the Fourth Amendment.” Id. But we
can, of course, “affirm a lower court’s ruling on any
grounds adequately supported by the record, even
grounds not relied upon by the district court.” United
States v. Fager, 811 F.3d 381, 385 (10th Cir. 2016)
(quoting United States v. Mabry, 728 F.3d 1163, 1166
(10th Cir. 2013)).
“[W]hen . . . officers have probable cause to believe
that an automobile contains contraband, the Fourth
Amendment does not require them to obtain a warrant
prior to searching the car for and seizing the contraband.” Florida v. White, 526 U.S. 559, 563-64 (1999).
“Probable cause to search a vehicle is established if,
under the totality of the circumstances, there is a
fair probability that the car contains contraband or
evidence.” United States v. Chavez, 534 F.3d 1338,
1344 (10th Cir. 2008) (quoting United States v. VasquezCastillo, 258 F.3d 1207, 1212 (10th Cir. 2001)). Our
cases provide the smell of marijuana alone establishes
probable cause to search a vehicle. United States
v. Snyder, 793 F.3d 1241, 1244 (10th Cir. 2015)
(collecting cases).
The record clearly establishes Trooper McCord had
probable cause to search the Tahoe based on the odor
of marijuana he smelled coming from the vehicle. At
the suppression hearing, Trooper McCord testified he
is trained to detect marijuana and is familiar with the
smell of marijuana. Trooper McCord also testified he
detected an odor of marijuana coming from the Tahoe

8a
and told Claimant someone had smoked marijuana in
the vehicle. The district court found this testimony
credible and concluded Trooper McCord had probable
cause to conduct the search. Finding no clear error in
the district court’s factual findings, the smell of marijuana emanating from the Tahoe supplied Trooper
McCord with probable cause to search the vehicle.
We further conclude the district court did not erroneously rely on evidence seized during the search as a
basis for finding probable cause existed. In its probable cause ruling, the district court focused exclusively
on Trooper McCord’s testimony concerning the smell
of marijuana coming from the Tahoe. As the court
explained:
I cannot conclude from what I’ve heard today that
the trooper’s testimony that he believed that he
smelled the smoking of marijuana was deliberately untruthful, and because I can’t conclude that
I must conclude that he had probable cause to
conduct the search.
Based on that probable cause finding, I’m going to
deny the Motion to Suppress.
Appellant’s App. at 269-70 (emphasis added). Nowhere
in its ruling does the district court mention the
$144,780 or any other evidence discovered during the
search. We are not persuaded by Claimant’s attempt
to paint the record as otherwise. The district court,
therefore, did not err in its probable cause determination and in denying Claimant’s motion to suppress.
Because Claimant fails to show the district court erred
in denying his motion to suppress, he cannot establish
plain error.

9a
B.
We next turn to Claimant’s argument that the district court abused its discretion in permitting Trooper
Wolting to testify regarding the prior traffic stop and
drug-related arrest of Claimant on October 12, 2014.
Specifically, Claimant contends the evidence is inadmissible under Federal Rule of Evidence 404(b) because
it constituted improper character evidence used to
demonstrate action in conformity therewith.
We need not address whether Trooper’s Wolting testimony constituted inadmissible character evidence
under Rule 404(b) because even if the district court
erred in allowing such testimony, the error was harmless. “An erroneous admission of evidence is harmless
unless it had a substantial influence on the outcome or
leaves one in grave doubt as to whether it had such
effect.” United States v. Yeley-Davis, 632 F.3d 673, 685
(10th Cir. 2011) (quoting United States v. Bornfield,
145 F.3d 1123, 1131 (10th Cir. 1998)). The district
court is presumed to have disregarded improperly
admitted evidence during a bench trial. Tosco Corp. v.
Koch Indus., Inc., 216 F.3d 886, 896 (10th Cir. 2000).
Claimant fails to show Trooper Wolting’s testimony
influenced the outcome in this case. Although the
district court permitted Trooper Wolting to testify
regarding the 2014 stop, the court explicitly stated in
its order granting forfeiture it did not consider this
evidence in reaching its decision. We have no reason
to doubt the district court’s exhortation. As we explain
below, ample evidence existed—without considering
evidence of the 2014 stop—for the district court to
conclude the $144,780 was subject to forfeiture. Thus,
Trooper Wolting’s testimony did not substantially
prejudice Claimant, and any error was harmless.

10a
C.
Finally, we address Claimant’s argument that the
Government presented insufficient evidence to support
forfeiture under 21 U.S.C. § 881(a)(6). “In an appeal
from a bench trial, we review the district court’s factual
findings for clear error and its legal conclusions de
novo.” United States v. $252,300.00 in United States
Currency, 484 F.3d 1271, 1273 (10th Cir. 2007) (quoting Holdeman v. Devine, 474 F.3d 770, 775 (10th Cir.
2007)). Sufficiency of the evidence is a legal question
we review de novo. Douglas v. Workman, 560 F.3d
1156, 1172 (10th Cir. 2009).
Section 881(a)(6) provides for the forfeiture of “[a]ll
moneys . . . furnished or intended to be furnished by
any person in exchange for a controlled substance . . .
all proceeds traceable to such an exchange, and all
moneys . . . used or intended to be used to facilitate
any violation of this subchapter.” 21 U.S.C. § 881(a)(6).
The burden of proof lies with the Government to show,
by a preponderance of the evidence, the defendant
property is subject to forfeiture. 18 U.S.C. § 983(c)(1).
In evaluating whether the Government has met its
burden of proof, we employ a common-sense approach
and look to the totality of the circumstances. $252,300.00,
484 F.3d at 1274.
As a preliminary matter, we are not convinced the
Government must establish “a substantial connection
between the property and the offense” where, as here,
it employs a proceeds or intended-for-exchange theory.
See 18 U.S.C. § 983(c)(3). Section 983(c)(3) provides:
“[I]f the Government’s theory of forfeiture is that the
property was used to commit or facilitate the commission of a criminal offense, or was involved in the
commission of a criminal offense, the Government
shall establish that there was a substantial connection

11a
between the property and the offense.” 18 U.S.C.
§ 983(c)(3) (emphasis added). The plain text of the
statute indicates the substantial connection requirement
only applies when the Government is basing forfeiture
on a facilitation theory. Moreover, in $252,300.00,
we stated: “The government’s theory of forfeiture
is that the currency ‘was furnished or intended to be
furnished in exchange for a controlled substance, or
constitutes proceeds traceable to such an exchange, or
was used or intended to be used to facilitate’ criminal
acts.” 484 F.3d at 1273 (emphasis added). Because,
however, we find the evidence in this case sufficient to
conclude a substantial connection exists between the
$144,780 and illegal drug trafficking, and because the
parties did not fully brief the issue, we decline to
address whether such a showing is required here.
Considered in their totality, the facts of this case
demonstrate the Government presented sufficient evidence to support the district court’s order of forfeiture.2
This evidence is as follows. Claimant rented a Tahoe
on May 8, 2015, which was due back on May 12,
2015—the day of the stop. When Trooper McCord
pulled the Tahoe over, Claimant stated he was traveling to Denver for a week-long family vacation, but the
Tahoe contained no luggage; only two shirts and a pair
of pants were hanging in the rear of the vehicle. At
trial, Claimant admitted he lied to Trooper McCord
about the purpose of his trip to Denver. Trooper
McCord smelled the odor of burnt marijuana coming
from the Tahoe, conducted a search of the Tahoe,
and found $144,780 bundled with rubber bands inside
2

In finding the Government presented sufficient evidence to
support forfeiture, we do not consider the fact Jaxx, a certified
narcotics detection dog, alerted to the presence of controlled
substances on the $144,780.

12a
two vacuum-sealed plastic bags. During the search,
Trooper McCord also discovered marijuana gleanings
in the third-row seating area of the Tahoe. After
Trooper McCord discovered the currency, Claimant
explained neither the source of the currency nor why
he was traveling with such a large amount of cash.
Claimant later explained he planned to drop off the
$144,780 with Romero, a Denver resident Claimant
knew through Facebook but had never met in person,
as an investment in a twelve-city music tour. No written agreement between Claimant and Romero or any
documentation outlining the details of the tour existed
at the time of the stop. Nor did Claimant produce any
evidence to show he was investing the $144,780 in a
music tour Romero was already putting together.
Claimant challenges the district court’s finding that
his explanation for his trip to Denver was implausible.
Specifically, Claimant contends he produced evidence
showing he had a successful event promotion business
and had arranged a meeting with Romero to invest in
a music tour; thus, the district court should have found
his story credible. The district court found Claimant’s
explanation for transporting the currency—to leave
$144,780 with a social media acquaintance as an
investment in a music tour—either unsubstantiated or
wholly lacking in credibility. We are required to give
district court determinations of fact and assessments
of witness credibility special deference. Anderson v.
City of Bessemer, 470 U.S. 564, 573-74 (1985). The
district court gave several reasons supported by the
record for finding Claimant’s story implausible, and
we need not restate them here. Our review of the
record simply provides no basis upon which to conclude the district court’s assessments of credibility or
other findings of fact were clearly erroneous.

13a
The discovery of large quantities of cash alone, of
course, is not sufficient to establish Claimant intended
to furnish the $144,780 in exchange for a controlled
substance or to prove the currency constituted proceeds of illegal drug transactions. We have, nonetheless,
recognized such discovery is “strong evidence” of a
connection to illegal drug trafficking. $252,3000.00,
484 F.3d at 1274-75. Additionally, legitimate businesses do not transport large quantities of cash wrapped
in cellophane-type material—this is a technique drug
traffickers use in an effort to prevent detection by
drug-sniffing dogs. Id. Such evidence has “significant
probative value.” Id. The presence of a substantial
amount of vacuum-sealed currency combined with the
district court’s finding—which is not clearly erroneous—
that Claimant failed to credibly explain the purpose
for his trip to Denver weigh strongly in favor of
concluding the currency is subject to forfeiture.
Inconsistent statements as to the purpose of traveling with seized currency are also of probative value.
See $252,3000.00, 484 F.3d at 1274. Claimant informed Trooper McCord he was going to Colorado for
a family vacation, and he conceded at trial this was
a lie. As to the purported music tour, Claimant’s testimony contradicted Romero’s testimony. Claimant
testified he planned to merely invest the $144,780 in a
music tour Romero had already been putting together.
Romero, on the other hand, testified he only planned
to handle the artists, the twelve-city tour was Claimant’s
idea, and Claimant would have lined up the venue
in each city. The inconsistencies in Claimant’s story
weigh in favor of finding Claimant intended to
exchange the $144,780 for a controlled substance and
the $144,780 was connected to illegal drug activity.

14a
Claimant’s criminal history involving drugs is not
coincidental; rather, it suggests the subject currency
was connected to illegal drug activity. See United
States v. $67,220.00 in U.S. Currency, 957 F.2d 280,
286 (6th Cir. 1992) (explaining a “claimant’s record
of drug activity is a highly probative factor in the
forfeiture calculus”); United States v. U.S. Currency
$83,310.78, 851 F.2d 1231, 1236 (9th Cir. 1988) (noting a claimant’s prior arrests and convictions on drug
charges “are circumstances demonstrating more than
mere suspicion of his connection with an illegal drug
transaction”). Claimant’s prior drug-related arrests and
convictions provide a nexus to illegal drug activity.3
Where this evidence is accompanied by other persuasive evidence such as the odor of marijuana coming
from his vehicle, the presence of drugs in his vehicle,
and lying to a law enforcement officer, we conclude it
supports the reasonable inference Claimant intended
to exchange the $144,780 for controlled substances
and the currency is connected to drug trafficking.
As to the sources of the currency, Claimant contends
he established the legitimacy of the $144,780 by presenting evidence of substantial income through his
event promotion business and a loan from a business
associate. Evidentiary support, or lack thereof, establishing a legitimate source of the currency is “entitled
to considerable weight” in the forfeiture calculus. See
$252,3000.00, 484 F.3d at 1275. To support his claim,
Claimant proffered evidence of a $40,000 loan he
received from Mustafa Ali in exchange for a promissory note under which Claimant agreed to repay the
loan in two months at 50% interest. Claimant also
3

Like the district court, we did not consider evidence of
Claimant’s October 2014 traffic stop and arrest in reaching our
decision.

15a
testified about his successful event promotion business and proffered invoices showing his company
profited more than $150,000 in the first half of 2015
before the seizure of the $144,780. Eric Union, the
manager of Encore Nightclub, testified these contracts
were legitimate and the invoices were accurate based
on a headcount of how many people entered the club
during each event.
But Union also testified neither he nor his employees handled the cash because Claimant controlled the
cash during these events. Notably, Encore Nightclub
closed on May 17, 2015, supposedly after it lost its
liquor license. John Masha, Claimant’s business associate, also testified that his full-time event booking
company’s annual gross income is approximately $50,000.
Although Claimant had a personal checking account,
savings account, and business bank account for his
company, none of the seized $144,780 came from a
bank. Claimant declared bankruptcy in 2011, and he
never reported making more than $19,000 per year
prior to the traffic stop giving rise to this case.
Claimant initially reported about $17,000 as income
on his 2014 tax return but subsequently amended this
tax return to show about $95,000 in income after the
seizure of the $144,780. The district court found
Claimant generally lacked credibility due to, inter
alia, his evasive and non-responsive answers at trial
concerning his taxes.
Based on this evidence, the district court concluded
the Government failed to establish by a preponderance
of the evidence the $144,780 constituted proceeds of an
illegal drug exchange. We are less convinced Claimant’s
proffer of possible innocent sources of income vitiates
the Government’s showing of a strong probability the
$144,780 was in fact proceeds of illegal drug transac-

16a
tions. But it is not this appellate court’s place to weigh
conflicting testimony or evaluate the credibility of the
witnesses. See Anderson, 470 U.S. at 573-74. Although
we may have weighed the evidence differently had we
sat as the trier of fact, we cannot conclude the district
court’s account of the evidence is implausible in light
of the record.
Nonetheless, the Government plainly carried its
burden in this case to prove the $144,780 is subject
to forfeiture under 18 U.S.C. § 881(a)(6). Given the
implausibility of Claimant’s explanation for his trip,
Claimant’s false statement to Trooper McCord about
the purpose of his trip, the large amount of cash
involved, the method in which the currency was
bundled and vacuum sealed, Claimant’s borrowing
$40,000 from a business associate with a promise to
repay the loan with 50% interest in two months, the
marijuana gleanings found in his rental vehicle, his
drug-related criminal history, and the discrepancies
between his alleged income and his tax returns, the
Government presented sufficient evidence showing
Claimant intended to exchange the $144,780 for a
controlled substance and the $144,780 is substantially
connected to illegal drug trafficking. Thus, the district
court properly forfeited the currency to the Government.
* * *
For the foregoing reasons, the judgment of the
district court is AFFIRMED.
Entered for the Court
Bobby R. Baldock
Circuit Judge

17a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
[Filed August 27, 2018]
————
Case No. 15-1230-JWB
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
$144,780.00 IN UNITED STATES CURRENCY,
more or less,
Defendant,
and
NATHAN DUCKWORTH,
————

Claimant.

MEMORANDUM AND ORDER
This action for forfeiture pursuant to 21 U.S.C.
§ 881(a)(6) came before the court for a bench trial on
July 13, 2018. (Doc. 73.) At the close of the evidence,
the court took the matter under advisement to permit
the parties to submit proposed findings of fact and
conclusions of law. Those items have now been filed
(Docs. 77, 78) and the court is prepared to rule. For
the reasons stated herein, Plaintiff is GRANTED a
judgment of forfeiture of the defendant property, and
Claimant’s claim to the property is DENIED.
I. Background
On July 28, 2015, the United States filed a complaint for forfeiture of $144,780 in United States
currency. (Doc. 1.) The complaint alleged the money

18a
was seized by the Kansas Highway Patrol during a
traffic stop of a car driven by Claimant Nathan
Duckworth on 1-70 in Ellis County, Kansas. Plaintiff
contends the money is subject to forfeiture pursuant to
21 U.S.C. § 881(a)(6) because it was intended to be
used in an illegal exchange for controlled substances
or is proceeds traceable to a violation of the Controlled
Substances Act. (Doc. 49 at 3.)
A warrant was issued for arrest of the defendant
property. (Doc. 3.) Claimant filed a notice of claim
(Doc. 5) and answer to the complaint (Doc. 6), in which
he asserted the money was his, that it was legitimately
derived from his business and personal savings, and
that it was not the proceeds of, or intended to be used
in connection with, controlled substances. On November
14, 2016, the Honorable Eric F. Melgren held a hearing on Claimant’s motion to suppress evidence (Doc.
24), and orally denied the motion. (Docs. 36, 52 at 80.)
On May 3, 2018, the undersigned judge denied
Claimant’s motion for summary judgment. (Doc. 66.)
The court has jurisdiction to hear this forfeiture
proceeding pursuant to 28 U.S.C. § 1355(b).
II. Findings and Analysis
The following property is subject to forfeiture to the
United States, and no property right shall exist in
them: all moneys intended to be furnished by any
person in exchange for a controlled substance in violation of Subchapter I of the Controlled Substances Act.
21 U.S.C. § 881(a)(6). Under the Civil Asset Forfeiture
Reform Act of 2000 (“CAFRA”), 18 U.S.C. § 983(c), it is
Plaintiff’s burden to show by a preponderance of
the evidence that forfeiture applies. United States v.
$252,300 in US. Currency, 484 F.3d 1271, 1273 (10th
Cir. 2007).

19a
The evidence at trial showed that on May 12, 2015,
on 1-70 in Ellis County, Kansas, Kansas Highway
Patrol Trooper James McCord was on duty when he
received a call from dispatch. The dispatcher said a
caller reported a westbound black Chevrolet Tahoe
with Kansas plates weaving in and out of traffic at a
high rate of speed near McCord’s location. Shortly
thereafter, McCord saw a black Chevy Tahoe with
Kansas plates traveling westbound and clocked it on
radar going 85 miles per hour in a 75 mile per hour
zone. McCord stopped the car, which was driven by
Claimant. There was one other person in the car –
a friend of Claimant’s named Walter Weathers.
Claimant told McCord he was on his way to Denver for
a week-long family vacation. McCord determined from
a rental agreement that the car had been rented by
Claimant on May 8, 2015, from Advantage Rental Car
in Kansas City, and that it was due back in Kansas
City on May 12, the day of the stop. During the stop,
McCord detected an odor of marijuana coming from
the Tahoe, and remarked to Claimant that someone
had been smoking marijuana in the car. Claimant
denied anyone had been smoking marijuana or that
there were any drugs in the car.
Based on the smell of marijuana from the vehicle,
McCord decided to search the car. During the search,
he located a backpack between the driver and passenger
seats. The backpack contained two clear, heat-sealed
vacuum bags with a large amount of United States
currency inside. (Govt. Exh. 1.) When McCord asked
how much money was in the bags, Claimant told him
it was none of his business. McCord also located what
he characterized as marijuana and tobacco “gleanings”
on the carpet floor in front of the vehicle’s third row of
seats. Photographs of the gleanings (Govt. Exhs. 2, 3)
support McCord’s testimony. McCord is an experi-

20a
enced trooper with training in the visual recognition of
marijuana and testified that he recognized marijuana
in the vehicle and as shown in the photos. The court
finds that testimony, as well as McCord’s testimony
that he detected an odor of marijuana from the vehicle,
to be credible.
Aside from the backpack containing the money,
there was no luggage in the vehicle. McCord saw only
two shirts and a pair of pants hanging in the rear
passenger window. Officers found a total of five cell
phones in the car. (Govt. Exh. 5-3.) In his deposition,
Claimant stated that three of the cell phones belonged
to him. (Govt. Exh. 5 at 43-45.)
Kansas Highway Patrol Trooper Ian Gray and his
patrol service dog, Jaxx, are trained and certified as a
Narcotic Detection Dog Team. (Govt. Exh. 4.) Jaxx is
trained to detect marijuana, heroin, methamphetamine,
and cocaine. A few hours after the stop, Gray and Jaxx
were called in to Troop D Headquarters to do a
“currency screening” on the cash from Claimant’s
vehicle. The screening was a “blind” test where the
cash was removed from its plastic container and
hidden from view by a third party. Gray and Jaxx were
then brought in to screen the area. Jaxx passively
alerted to the money by sifting next to a cardboard box
containing the money. Gray testified he had training
or experience concerning vacuum-sealed money and
that some people use that technique to try to prevent
an odor of drugs on money from being detected.1 The
1

The Government additionally presented the testimony of
Kansas Highway Patrol Trooper Ryan Wolting, who said that on
October 12, 2014, Claimant was a passenger in a rental vehicle
being driven by Claimant’s wife eastbound on 1-70 in Ellsworth
County, Kansas. Wolting stopped the vehicle for going 78 in a
75 mile-per-hour zone. Wolting did not believe the explanation

21a
cash was counted and found to be $144,780.00 in
United States currency.2
At the trial, Claimant conceded he lied to Trooper
McCord about going to Denver for a family vacation.
He testified he felt the purpose of the trip was none of
the Trooper’s business, and that if he had disclosed the
real purpose or the fact that he had a large amount of
cash, the Trooper would have targeted him. After
McCord said he smelled marijuana, Claimant testified
he thought it was better to “shut[] down and let the
law take place.” Claimant testified he was on his way
to Denver to meet with Ruben Romero and give the
money to Romero to invest it in a musical tour that he
and Romero had discussed. Claimant said Romero told
him he had put together a 12-city tour and needed a
total of $600,000 to put it on. Claimant indicated he
of Claimant and his wife, who were both unemployed, that they
wanted to get away from home so they had traveled from Kansas
City to spend a night in Hays, Kansas, before returning home.
Wolting said he searched the vehicle and found nine pounds of
marijuana in individual one-pound vacuum-sealed bags, a
loaded pistol in the center console, and just over $5,000 in cash in
Claimant’s pants pocket. Wolting said Claimant claimed responsibility for the items. Wolting arrested Claimant but did not know
of the disposition of the charges against him.
The defense objected to this evidence on relevance grounds
and additionally intimated that the search of the vehicle may
have been unlawful. The evidence presented at trial here was
inconclusive with respect to the lawfulness of the search. Under
the circumstances, the court declines to consider evidence of the
October 14, 2014, stop in reaching its decision.
2

Claimant also asserted that the actual amount seized was
$147,200. (Doc. 5 at 2.) The evidence at trial did not support this
assertion, as the credible evidence showed only the seizure of
$144,780. Claimant’s counsel asked one witness whether $3,500
was also found in Claimant’s pocket, but no evidence indicating
the seizure or disposition of such a sum was presented.

22a
was one of the investors in the tour. Claimant said it
was common in the music business to vacuum-seal
money. He said he did not tell his friend, Walter
Weathers, about the money in the backpack. Claimant
indicated he planned to go to Denver to drop off the
money, find out more about what was going on, and
drive right back to Kansas City. For reasons discussed
later in this opinion, the court finds Claimant’s testimony concerning the purpose of his trip is not credible.
Claimant lives in Kansas City, Missouri, with his
wife and daughter. Claimant used to work at a
chemical company but later got into the promotion
business. In 2011, Claimant came out of Chapter 7
bankruptcy with no non-exempt assets. By the end of
2014, Claimant had an entertainment promotion
business called “Building Bridges Entertainment,
LLC,” which was registered in Missouri. Claimant
testified that most of the cash in his car came from his
entertainment promotion business, in addition to
$40,000 loaned to him by an associate in Kansas City
named Mustafa Ali.
Mustafa Ali lives in Kansas City and operates a
rental car business and a business that sells energy
drinks. Claimant was involved with Ali in the energy
drink business. Ali testified by deposition that he
loaned Claimant $40,000 in cash on May 8, 2015,
under an agreement whereby Claimant was to repay
him within two months, together with 50% interest
($20,000). (Def. Exh. 603 at 4-5.3) Claimant gave him
a signed promissory note. (Def. Exh. 605.) Ali testified
he had $43,000 in cash at his house at the time, which
3

Page numbers here refer to the numbers in the upper
right-hand corners of the exhibit, not to individually numbered
deposition pages.

23a
constituted several years’ worth of savings, and he
gave Claimant $40,000 of it. Ali understood the money
was for some sort of concert tour but said he did
not ask Claimant specifics. Ali was not aware that
Claimant had any criminal history and knew nothing
about vacuum sealing of the money.
Claimant presented evidence of promotion contracts
he entered with Encore Nightclub in Kansas City in
late 2014 and early 2015 relating to various events at
the nightclub. Claimant testified he promoted these
events and obtained performers, provided services
such as doormen and security, and in exchange he
collected cash entry fees from event patrons. He then
paid his expenses out of the collected cash. Claimant
cites invoices purportedly showing his company collected fees exceeding $10,000 for many of these events,
with net profits in the first half of 2015 totaling nearly
$150,000. (Def. Exhs. 605-615.)
Ruben Romero lives in Denver. He testified by way
of deposition. He and Claimant became mutual
Facebook friends. Romero said Claimant proposed
putting together a 12-city tour, with Romero booking
artists and Claimant lining up the nightclubs and
venues. Romero was a musician who had a business
called EnV Entertainment that he formed to sell his
own music CDs. Romero’s CDs “flopped,” however, and
he lost money. The company was dormant as of May
12, 2015. Romero said he talked to “a couple of
managers” about a possible tour. EnV Entertainment
had no bank account as of May 2015 and had filed no
tax returns because it had no income. Romero had
never organized a concert tour before. Romero testified
that Claimant said he only deals in cash.
Claimant testified that he was investing in a 12-city
tour that he believed Romero had already put

24a
together. By contrast, Romero testified he had “no
idea” of what 12 cities would be chosen, as he said it
was Claimant’s role to line up venues. According to
Romero, the figure of approximately $140,000 for the
tour that he and Claimant talked about was just
Romero’s “rough ballpark estimate” and “spit-balling
a number” of what the tour would cost to put on.
Claimant and Romero had no written agreement of
any kind. In 2016, about nine months after the money
was seized, Claimant emailed Romero and asked him
to provide a copy of what their contract “was supposed
to have been.” Romero drafted and sent back a “basic
outline of what it [the contract] was going to be.” (Def.
Exh. 601, Att. B.) Romero has a prior felony conviction
in Colorado relating to marijuana, for which he spent
18 months in prison, and admits to occasionally using
marijuana, although he denies selling it.
Claimant’s federal tax return for 2011 shows he
reported just over $19,000 in adjusted gross income.
(Govt. Exh. 5-4.) For 2012, he reported adjusted gross
income of just over $12,000. (Govt. Exh. 5-5.) In 2013,
he reported just under $18,000. (Govt. Exh. 5-6.) In
2014, he initially reported adjusted gross income of
about $17,000. Sometime after the May 2015 seizure
of $144,780 from his car, Claimant was referred by
Mustafa Ali to accountant Connie Neighbors.
Neighbors helped Claimant file an amended federal
tax return that reported over $95,000 in adjusted
gross income for the year 2014, including over $45,000
in business net income. (Govt. Exh. 6-3.) Neighbors
also helped Claimant file his federal tax return for
2015, in which he reported adjusted gross income of
over $114,000, and business net income of over
$89,000. (Govt. Exh. 6-4.)

25a
Claimant was convicted of a federal cocaine offense
in approximately 1996 and spent time in prison. His
supervised release for that offense was later revoked.
In his deposition, Claimant explained that the
revocation occurred after marijuana was found in his
car and a passenger blamed it on Claimant, although
Claimant denied knowing about the marijuana and
was not prosecuted for it. (Govt. Exh. 5 at 70-72.)
When Claimant was asked at trial about initially
reporting only $17,000 on his federal tax return for
2014, Claimant said that figure was “correct but it
wasn’t accurate.” When asked to explain, he indicated
that he decided to “get . . . on the right track” and
report the cash income from his business.
The court finds Claimant’s explanation that he
intended to use the $144,780 to invest in a musical
tour is not credible. There are a number of reasons for
this, including but not limited to the following. First,
it is doubtful that a large sum of cash like this would
be used to fund a legitimate musical tour. Legitimate
businesses would typically use checks, bank transfers,
and bank accounts to move such sums, and the transactions would ordinarily be documented. See United
States v. Hernandez-Lizardi, 530 F. App’x 676, 684
(10th Cir. 2013) (“large quantities of cash are strongly
probative of participation in drug distribution”); United
States v. $242,484.00, 389 F.3d 1149, 1161 (11th Cir.
2004) (“A common sense reality of everyday life is that
legitimate businesses do not transport large quantities of cash rubber-banded into bundles. . . .”). In his
deposition, when asked whether promoters deal in
cash or in checks and bank drafts, Claimant indicated
that every deal was different but this one “was the first
time it was a cash deal,” and that it was done that way
because Romero asked for cash. (Govt. Exh. 4 at 38.)
Claimant’s and Romero’s explanations for the cash

26a
were contradictory, with Romero indicating it was
Claimant’s idea because Claimant said “he deals with
cash,” (Govt. Exh. 7 at 7), while Claimant said it was
Romero’s idea. Claimant’s additional explanation that
the world of rap music typically operates with cash
was unsupported by credible evidence and was equally
unpersuasive under the specifics of this supposed deal.
Romero’s testimony shows the tour idea was little
more than a concept (or perhaps more accurately,
a pretext), with no artists, venues, dates, locations
(aside from Kansas City) or other details agreed to
between Romero and Claimant. There was certainly
no evidence that anything had been lined up. Yet
Claimant asserted in his deposition that Romero had
“supposedly . . . got everything situated” on March 11,
2015, and so the trip on the 12th “was a hurry up deal
but it was already being put together” by Romero.
(Govt. Exh. 5 at 48.) Claimant’s and Romero’s testimony thus conflicted on major points like whether
Romero had already put a tour together or whether
Claimant was supposed to come up with the venues
and cities for the tour. Common sense suggests a
legitimate small business operator would not likely
drive from Kansas City to Denver with $144,780 in
cash to drop it off with a social media acquaintance,
for a tour that neither one of the principals knew much
of anything about. That explanation is particularly
questionable given that Romero had no experience
funding or promoting a tour of this sort. The two
principals clearly had very little communication about
a tour before Claimant headed to Colorado. They had
no documentation or contract at the time and no
concrete plans of any sort.
Claimant’s explanation that he was carrying the
money to invest in a tour was also undermined by his
lack of credibility generally. His answers to numerous

27a
questions at trial were evasive or non-responsive.
Claimant showed little inclination to accept responsibility for any of his actions. After being stopped for
speeding, Claimant promptly lied to McCord about the
purpose of his trip, falsely telling McCord he was going
to Colorado for a vacation with family. Claimant’s
tax returns also support an inference that he misled
the IRS about his income, as he initially reported only
about $17,000 in income for 2014, but amended his
2014 return to show about $95,000 in income after
being found in possession of the $144,780. Claimant
suggested the amendment was due to a simple desire
to operate his business cleanly, but a more likely
explanation is that he was concerned about discovery
of illegitimate activities and felt compelled to declare
more income after being found in possession of a large
amount of cash. Also undermining the credibility of
Claimant’s testimony was the fact that he vacuumsealed the alleged investment money. One obvious
reason for doing that, as indicated by Trooper Gray’s
testimony, would be to avoid detection of the money by
a drug-sniffing dog. Claimant asserted that it was
“very common to vacuum seal your money” in the music
business, but the totality of circumstances suggests
the former explanation – avoiding detection – was the
more likely one for Claimant’s behavior. For these
reasons and others, the court finds Claimant was not
a credible witness with respect to the asserted purpose
of the money and the trip.
Courts have recognized that the following circumstances can give rise to or contribute, to some degree,
to a reasonable inference of criminal activity and/or
drug trafficking: large sums of cash (United States v.
Thompson, 881 F.3d 629, 633 (8th Cir. 2018)); an
implausible cover story (United States v. Castillo, 713
F.3d 407, 411 (8th Cir. 2013)); implausible travel plans

28a
including traveling a long distance only to stay one
night at a destination (United States v. Latorre, 893
F.3d 744, 751 (10th Cir. 2018)); criminal history (Id. at
752); bundling and transporting money in vacuumsealed bags (United States v. Burkley, 513 F.3d 1183,
1189 (10th Cir. 2008; United States v. $252,300 in U.S.
Currency, 484 F.3d 1271, 1275 (10th Cir. 2007)); and
lying to officers (Teague v. Overton, 15 F. App’x 597,
601 (10th Cir. 2001)). Most of the foregoing decisions
address whether the totality of circumstances in a
particular case give rise to a reasonable suspicion of
criminal activity. In the instant case, the court has
considered the evidence relating to the above factors,
as well as the remaining evidence, and finds it shows
by a preponderance that the $144,780 in Claimant’s
car was intended to be furnished by Claimant in
exchange for a large quantity of marijuana or other
controlled substances, which he then planned to distribute, in violation of the Controlled Substances Act.
A primary factor supporting this conclusion is the
implausibility of Claimant’s explanation that he was
driving to Denver to leave a backpack full of cash with
a social media acquaintance for a non-existent tour.
Other evidence supporting an inference that Claimant
intended to use the money for such an illicit purpose
includes Claimant’s lie to the Trooper at the time of
the stop about his reason for going to Colorado, the
large amount of cash involved, the fact that Claimant
vacuum-sealed the cash, and Claimant borrowing
$40,000 cash from a business acquaintance under an
extraordinary promise to repay the principal with 50%
interest in two months. When considered with other
evidence, including the fact that Claimant had residue
of marijuana in his car at the time of the stop, and that
both Claimant and Romero had prior felony convictions for drug trafficking offenses, the court finds that

29a
Claimant likely possessed the $144,780 with the intent
to furnish it to Romero and/or others in exchange for a
substantial quantity of controlled substances, so that
Claimant or others could distribute the substances.
On the other hand, Plaintiff has failed to show by
a preponderance that the $144,780 itself constituted
proceeds traceable to an exchange for controlled substances. Claimant’s tax returns raise some concern
about whether the cash actually came from his entertainment business and from a loan, as he claimed, but
Claimant’s explanation of the source of the cash was
at least plausible under the evidence presented. For
that reason, the court attaches no real significance
to the alert of Jaxx indicating an odor of controlled
substances on the money. Indeed, Trooper Gray, the
dog handler, testified that Jaxx might have alerted to
the cash if even one bill in the stack was tainted with
the smell of controlled substances. Although such
an alert might be probative in other circumstances,
evidence indicating that the cash could have been
collected from thousands of individuals at a night club
weakens any inference that the alert shows the money
constituted proceeds traceable to a drug trafficking
exchange. Cf. United States v. Kitchell, 653 F.3d 1206,
1222 (10th Cir. 2011) (noting question of whether
large percentage of circulated currency is tainted by
contact with controlled substance, but finding alert
was sufficient for probable cause). Nevertheless, for
the reasons indicated previously, Claimant’s packaging
of the money, the circumstances of his trip, and the
other evidence previously discussed shows that Claimant
likely intended to use the money to exchange it for
controlled substances.

30a
III. Conclusion
The court determines the United States is entitled
to forfeiture of Defendant $144,780.00 in United
States currency, pursuant to 21 U.S.C. § 881(a)(6). The
court further finds that Claimant Nathan Duckworth
has no property right in the currency; his claim to the
same is denied.
The foregoing Memorandum and Order constitutes
the court’s findings of fact and conclusions of law
pursuant to Fed. R. Civ. P. 52(a). Plaintiff may submit
a form of judgment to the court consistent with the
foregoing findings.
IT IS SO ORDERED this 27th day of August, 2018.
s/John W. Broomes
JOHN W. BROOMES
UNITED STATES DISTRICT JUDGE

31a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
[Filed November 13, 2019]
————
No. 18-3201
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
$144,780.00 IN UNITED STATES CURRENCY,
more or less,
Defendant.
NATHAN DUCKWORTH,
Claimant-Appellant.
————
ORDER
Before TYMKOVICH, Chief Judge, BALDOCK, and
HOLMES, Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER, Clerk

